Case: 19-6319

Document: 30-2

Filed: 11/04/2020

(2 of 4)

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0626n.06
No. 19-6319
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appel lee,

)
)
)

BRYAN KEITH GOINS,

)
)
)
)

v.

Defendant-Appellant.

Nov 04, 2020
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
TENNESSEE

)
)

BEFORE: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges:
:

PER CURIAM. Bryan Keith Goins appeals his 50-month sentence for.being ;a: felon in "

possession of a firearm. We AFFIRM.
Goins pled guilty to being a felon in possession of a firearm. See 18 U.S.C. § 922(g)(1).
Before sentencing, Goins’s presentence report set a base offense level of 24 based on two prior
convictions for controlled substance offenses. The first was a Georgia conviction for possession
with intent to distribute methamphetamine. See Ga. Code Ann. § 16-13-30(b). And the second
was a Tennessee conviction for possession with intent to sell or deliver methamphetamine. See
Tenn. Code Ann. § 39-17-417(a)(4). After a reduction for accepting responsibility, Goins’s total
offense level was 21. Combined with his criminal history category of V, this led to a Guidelines
range of 70 to 87 months of imprisonment.
Goins objected to the presentence report. He argued that his two prior drug offenses do
not qualify as controlled substance offenses under the Sentencing Guidelines. So, according to
Goins, his base offense level should be 14, his total offense level 12, and his Guidelines range 27

(K (^Ajj

FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INCORPORATED
800 S. Gay Street, Suite 2400
Knoxville, Tennessee 37929-9714
Elizabeth B. Ford
Federal Community Defender

Telephone 865-637-7979
Fax
865-637-7999

November 6, 2020

Mr. Bryan Keith Goins, No. 54011-074
FCI Beckley
PO Box 350
Beaver, WV 25813
Re:

Your appeal

Dear Mr. Goins:
Your case was reviewed by the Sixth Circuit earlier than December 3rd, and I am sorry to inform
you that the court affirmed the district court’s judgment. I have enclosed a copy of the opinion
they issued. You have lost your appeal. ,
J
.
.
Your case did.not present any issues the Supreme Court would be interested in evaluating, so I
cannot file a petition for writ of certiorari (an appeal to the Supreme Court). However, you have
one year from the date of this opinion to file a “2255” petition. You would file the-2255 petition
yourself. Your law library would have the necessary forms.
Because there is nothing more I or my office can do to assist you at this time, I will be closing
;
your'file.
Sincerely,

FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.

i,

' By:

■

"s/ Jennifer Niles Coffin
Jennifer Niles Coffin
Assistant Federal Defender

•\

JNC/gc
Enclosure
Jonathan A. Moffatt Bobby E. Hutson, Jr. Benjamin G. Sharp Jennifer Niles Coffin Nakeisha C. Jackson Molly Kincaid
Assistant Federal Defenders

Case: 19-6319

Document: 30-2

Filed: 11/04/2020

Page: 2

(3 of 4)

No. 19-6319, United States v. Goins
to 33 months of imprisonment. But the district court overruled Goins’s objections at sentencing
.\

and adopted the presentence report. After considering the factors under 18 U.S.C. § 3553(a), the
i

district court varied downward from the Guidelines and sentenced Goins to 50 months of
imprisonment.
Goins appealed. He continues to argue that the district court was wrong to count his prior
Georgia and Tennessee convictions as controlled substance offenses under the Sentencing
Guidelines. And for support he relies on our recent decision in United States v. Havis, 927 F.3d
382, 387 (6th Cir. 2019) (en banc). Havis held that the definition of “controlled substance offense”.
in U.S.S.G. § 4B 1.2(b) does not include attempt crimes. Id. at 386. Goins correctly notes that the ■
Georgia and Tennessee criminal codes proscribe “delivering]” controlled substances, Ga. Code
\

Ann. § 16-13-30(b); Tenn. Code Ann. § 39-17,-417(a). And he’s right that delivery includes
“attempted transfer.” Ga. Code Ann. §16-13-21(7); Tenn. Code Ann:*§ 39-17-402(6). But he is
wrong that possession with intent to distribute or deliver a controlled substance'under either
Georgia or Tennessee law encompasses attempt crimes , and cannot qualify'as :ar;controlled
i1

. if

! ‘

substance offense,under the.Sentencing Guidelines.
.

.i i

^

t'.

>

:. . •
';

G

Indeed, as the government points out, we recently rejected Goins’s argument. In United
i

States v. Garth, 965 F.3d 493, 498 (6th Cir. 2020), we held that possession with intent to deliver a
controlled substance under Tennessee law is categorically a controlled substance offense under the
Sentencing Guidelines. And we noted that attempted transfer is not an attempt crime but is instead
completed delivery: Id. at 497. So “possession with intent to deliver”—or, using the statute’s
definition of “deliver,” possession with intent;to attempt to transfer—“is a completed crime, not
r

v•

»

-2-

k

Case: 19-6319

Document: 30-2

Filed: 11/04/2020

Page: 3

(4 of 4)

No. 19-6319, United States v. Goins
an attempted one that Havis puts beyond the guidelines’ reach.” Id. This reasoning applies with
equal force to the Georgia offense, which uses nearly identical language. l
The district court correctly determined that Goins’s prior Georgia and Tennessee
convictions for possession with intent to distribute or deliver a controlled substance qualify as
controlled substance offenses under the Sentencing Guidelines. Thus, we AFFIRM Goins’s
sentence.

l

Goins initially appeared to argue, albeit inartfully, that the Georgia statute is not
divisible. Presumably, this matters because when employing the categorical approach, we look to
the “least of the acts criminalized by the elements of [the] statute” that led to the conviction. Havis,
927 F.3d at 384 (citation omitted). And the Georgia statute criminalizes distribution and delivery,
which, according to Goins, encompass attempt crimes. See Ga. Code Ann. §§ 16-13-30,16-13-21
(7), (11)... Goins recognizes, however, that under the modified categorical approach, he was
convicted of “possession with intent to distribute,” and he later admits he likely conceded that
§ 16-13-30(b) is divisible into multiple crimes. We therefore express no opinion on whether the
Georgia statute is divisible and confine our analysis to whether “possession with intent to
distribute” is a completed crime.
-3-

<3>

AO 245B (Rev. TOED 02/2018) Judgment in a Criminal Case

United States District Court
EASTERN DISTRICT OF TENNESSEE CHATTANOOGA DIVISION
JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA

(For Offenses committed on or after November 1, 1987)
V.
■

BRYAN KEITH GOINS
USM#54011-074

Case Number: 1:18-CR-00I32-TRM-CHS(1)
Myrlene R. Marsa
Defendant’s Attorney
i

THE DEFENDANT:
13
□

pleaded guilty to count One of the Indictment.
pleaded nolo contendere to count(s) which was accepted by the court.

□

was found guilty on count(s) after a plea of not guilty.

ACCORDINGLY, the court has adjudicated that the defendant is guilty of the following offense(s):
Title & Section and Nature of Offense
18 U.S.C. § 922(g)(1), and 18 U.S.C. § 924(a)(2) Felon in Possession of a Firearm

Date Violation Concluded Count
1
05/15/2018

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984 and 18 U.S.C. 3553.
□ The defendant has been found not guilty on count(s).
□ All remaining count(s) as to this defendant are dismissed upon motion of the United States.
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the court and the United States attorney of any material change in the
defendant's economic circumstances.
November 14, 2019
;

Date Of Imposition of Judgment

;

■ ; ;.

:

' A

r

,
:•,

K

Signature of Judicial Officer

I

: :
u

!

. is/ Travis R, McDonough

r
■ -‘

E El.

' - Travis R.-McDonoughy United States District Judge
Name & Title Of Judicial Officer

r't

; i

November 18; 201-9
Date

1

:

Case l:18-cr-00132-TRM-CFIS Document 40 Filed 11/19/19 Page 1 of 7 PagelD #: 307

Appe-vJ'f'x (B)

\

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

Judgment - Page 2 of 7

BRYAN KEITH GOINS
1; 18-CR-OO 132-TRM-CHS(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
50 months as to Count One.
lx| The court makes the following recommendations to the Bureau of Prisons: The court recommends that the defendant receive 500
hours of substance abuse treatment from the BOP Institution Residential Drug Abuse Treatment Program.

[3 The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:
□ am. □ pm. on
□ at
□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p m. on .
□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
to

at
with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case l:18-cr-00132-TRM-CHS Document 40 Filed 11/19/19 Page 2 of 7 PagelD #: 308

^

qp>vl

If
2/2018) Judgment in a Criminal Case
ifo 245B (Revjn4EP°

hefendanJ-

Judgment - Page 3 of 7

BRYAN KEITH GOINS
1:18-CR-00132-TRM-CHS(l)

(‘ASE NUA}BER‘

SUPERVISED RELEASE
ears.
Upon release from imprisonment, the defendant shall be on supervised release for a term of three (3) y

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□
The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse, (check if applicable)
□
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663 A dr any other statute authorizing a sentencing
of restitution, (check ifapplicable)
■
You must cooperate in the collection of DNA as directed by the probation officer, (check if applicable)
13
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check ifapplicable)
□ You must participate in an approved program for domestic, violence. (check if applicable)

4
5.

6.
7.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case l:18-cr-00132-TRM-CHS Document 40 Filed 11/19/19

Page 3 of 7

PagelD #; 309
\

AO 245B (Rev. TOED 02/2018) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

Judgment - Page 4 of 7

BRYAN KEITH GOINS
1:18-CR-00132-TRM-CHS(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you'must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such as your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change, If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
I. 0. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
II. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. You must follow the instructions of the probation officer related to the conditions of supervision.
1.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the mandatory, standard, and any special conditions specified by the court and has
provided me with a written copy of this judgment containing these conditions. For further information regarding these conditions, see
Overview ofProbation and Supervised Release Conditions, available at: www.uscourts.gov.

Defendant’s Signature

Date

Case l:18-cr-00132-TRM-CHS Document 40 ' Filed 11/19/19 Page 4 of 7 PagelD #: 310

Sip

v TNED

^02*58(22====

OEFENDANT:
CASE NUMBER:

02/2018) Judgment in a Criminal Case

Judgment - Page 5 of 7

BRYAN KEITH GOINS
1:18-CR-00132-TRM-CHS(1)

SPECIAL CONDITIONS OF SUPERVISION

If
¥'

gp*;-

pi-

The defendant must participate in a program of testing and treatment for drug and/or alcohol abuse, as directed by the probation
officer, until such time as the defendant is released from the program by the probation officer.
The defendant must submit his person, property, house, residence, vehicle, papers, [computers (as defined in Title 18 U.S.C. §
1030(e)(1), other electronic communications or data storage devices or media,] or office, to a search conducted by a United States
probation officer or designee. Failure to submit to a search may be grounds for revocation of release. The defendant must warn any
other occupants that the premises may be subject to searches pursuant to this condition: An officer may conduct a search pursuant to
this condition only when reasonable suspicion exists that the defendant has violated a condition of his supervision and that the areas to
be searched contain evidence of this violation. Any search must be conducted at a reasonable time and in a reasonable manner.

Case l:18-cr-00132-TRM-CHS Document 40

Filed 11/19/19

Page 5 of 7 PagelD #: 311
\

AO 245B (Rev. TNED 02/2018) Judgment in a Criminal Case
DEFENDANT: .
CASE NUMBER:

'

Judgment - Page 6 of 7

BRYAN KEITH GOINS
1:18-CR-OO13 2-TRM-CHS(l)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments sheet of this judgment.

TOTALS
□
□

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

An Amended Judgment in a Criminal Case (A0245C) will be entered
The determination of restitution is deferred until
after such determination.
„ „ .
. ,
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

□
□

□

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3.612(f). All of the payment options under the Schedule
of Payments sheet of this judgment may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g). •
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□
restitution
□ the interest requirement is waived for the ■ □ fine
□
restitution is modified as follows:
□ fine
□ the interest requirement for the

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
■
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994,
but before April 23, 1996.

Case l:18-cr-00132-TRM-CHS Document 40 Filed 11/19/19 Page 6 of 7 PagelD #: 312
/

I.*

4 SB (Rev J -JED 02/2018) Judgment in a Criminal Case
BRYAN KEITH GOINS
i IEFENDANT:
1:18-CR-00132-TRM-CHS(I)
CASE NUMBER:
i

<

Judgment - Page 7 of 7

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

121
□
□

Lump sum payments of $ 100.00
not later than
in accordance with
□

due immediately, balance due
, or
C,
□
■ D,

B

□

Payment to begin immediately (may be combined with

C

□

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period
of
(e.g., months or years), to commence
(eg, 30 or 60 days) after the date of this judgment; or

D

□

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

□

Payment during the term of supervised release will commence within
(eg., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□

Special instructions regarding the payment of criminal monetary penalties: .

□

E, or

□

F below; or

□

C,

□

D, or

□

■

F below); or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
ue during imprisonment. All criminal monetaiy penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to U.S. District Court, 900 Georgia Avenue, Joel W. Solomon Federal
Building, United States Courthouse, Chattanooga, TN, 37402. Payments shall be in the form of a check or a money order, made
payable to U.S. District Court, with a notation of the case number including defendant number.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several

□
O
□

See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint
and Several Amount, and corresponding payee, if appropriate.
□ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant’s restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

Case l:18-cr-00132-TRM-CHS Document 40 Filed 11/19/19 Page 7 of 7 PagelD #: 313

